                       U.S. Environmental Protection Agency 	                                               09-P-0052
                                                                                                      December 9, 2008
                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment


Why We Did This Review            Results of Technical Network Vulnerability
The Office of Inspector
                                  Assessment: Region 9
General contracted with
Williams, Adley & Company,         What Williams, Adley & Company, LLP, Found
LLP, to conduct the annual
audit of the U.S.                 Vulnerability testing of EPA’s Region 9 network identified Internet Protocol
Environmental Protection          addresses with high-risk and medium-risk vulnerabilities. Although Region 9 has
Agency’s (EPA’s) compliance       taken actions to remediate most of the documented findings, several vulnerabilities
with the Federal Information      (both high and medium) still remain resolved.
Security Management Act
(FISMA). Williams, Adley &         What Williams, Adley & Company, LLP, Recommends
Company, LLP, conducted the
network vulnerability testing     Williams, Adley & Company, LLP, recommends that the Region 9 Director for
of the Agency’s local area        Information Resources Management and Technical Services Division:
network located at EPA’s
Region 9 office in San            •	 Complete actions to address all unresolved vulnerability findings.
Francisco, California.
                                  •	 Continue to work with the software vendor to resolve vulnerabilities. If the
                                     vendor is unable to provide a solution, implement a compensating control to
Background                           resolve the risk.
                                  •	 Enter a trouble ticket into EPA’s REMEDY system to resolve the
The network vulnerability            vulnerabilities associated with the Internet Protocol addresses under the
testing was conducted to             National Computer Center’s control.
identify any network risk         •	 Update EPA’s Automated Security Self Evaluation and Remediation
vulnerabilities and present the      Tracking (ASSERT) system.
results to the appropriate EPA
officials to promptly             •	 Perform a technical vulnerability assessment test of Region 9’s network
remediate or document                within 30 days to demonstrate and document corrective actions that have
planned actions to resolve the       resolved the vulnerabilities.
vulnerability.
                                  Due to the sensitive nature of this early warning report’s technical findings, the
                                  full report is not available to the public.

For further information,
contact our Office of
Congressional, Public Affairs,
and Management at
(202) 566-2391.
